                     OFFICE   OF   INSPECTOR GENERAL




Evaluation Report                                               2014-SR-B-015




    Opportunities Exist to Enhance
       the Board’s Oversight of
 Future Complex Enforcement Actions




                            September 30, 2014


             BOARD   OF   GOVERNORS   OF THE   FEDERAL RESERVE SYSTEM
                     CONSUMER FINANCIAL PROTECTION BUREAU
Report Contributors
  Michael Zeitler, Project Lead
  Nisha Patruni, Auditor
  Eric Shapiro, Auditor
  Michael VanHuysen, Senior OIG Manager for Supervision and Regulation
  Melissa Heist, Associate Inspector General for Audits and Evaluations


Abbreviations
   Board                      Board of Governors of the Federal Reserve System

   BS&R                       Division of Banking Supervision and Regulation

   DCCA                       Division of Consumer and Community Affairs

   IFR                        Independent Foreclosure Review

   OCC                        Office of the Comptroller of the Currency

   OIG                        Office of Inspector General

   OTS                        Office of Thrift Supervision

   PACER                      Public Access to Court Electronic Records

   QSF                        Qualified Settlement Fund

   Quad/Graphics              Quad/Graphics, Inc.

   Rust                       Rust Consulting, Inc.

   SCRA                       Servicemembers Civil Relief Act

   SOWs                       statements of work

   Supervisory Expectations   Complex Servicers Mortgage Foreclosure Supervisory Expectations
                                  Executive Summary:
                                  Opportunities Exist to Enhance the
                                  Board’s Oversight of Future Complex
                                  Enforcement Actions

2014-SR-B-015                                                                                            September 30, 2014

Purpose                                        Findings

The Board of Governors of the Federal          The Board’s advance preparation and planning efforts for the payment agreement
Reserve System (Board) and the Office          with the 13 servicers that joined the agreement in January 2013 were not
of the Comptroller of the Currency             commensurate with the complexity associated with this unprecedented
(OCC) negotiated a payment agreement           interagency effort to remedy possible harm at an individual borrower level for
with mortgage servicers to amend               nearly 4.2 million borrowers. This enforcement approach involved multiple
requirements in consent orders that            mortgage servicers supervised by the Board and the OCC. Further, three Reserve
address deficient mortgage loan                Banks had responsibility for monitoring five servicers’ implementation efforts.
servicing and foreclosure processing
practices. Our objectives for this             In addition, project management resources were not available to the Board’s
evaluation were to (1) evaluate the            oversight team for this initiative to assist in guiding and supporting this large,
Board’s overall approach to oversight of       complex initiative. We believe that complex initiatives could be better supported
the amended consent orders,                    with a staffing plan that includes project management resources. Such an
(2) determine the effectiveness of the         approach would allow a project management office to guide an initiative from
Board’s oversight of the slotting process,     planning through execution with support and direction from senior Board
and (3) determine the effectiveness of         officials and may limit the need for official staff to engage in daily oversight
the Board’s oversight of the servicers’        activities during the execution phase.
paying agent, Rust Consulting, Inc.
                                               The payment agreement required servicers to slot borrowers into categories of
                                               possible harm—with payment amounts set for each category—that were defined
Background                                     by Board and OCC staff. While we did not seek to validate the results of the
                                               slotting exercise at an individual-borrower level, we found that data integrity
The payment agreement replaced some            issues at two mortgage servicers impacted the reliability and consistency of the
requirements in consent orders that the        slotting results. These issues may have resulted in borrowers who experienced
Board, the OCC, and other agencies             similar harm receiving different payment amounts. We also determined that the
issued in 2011 and 2012, which                 Board has not selected its approach to end the payment agreement.
established the Independent Foreclosure
Review—a prior effort to identify and          Despite these challenges and limitations, as of August 15, 2014, borrowers of the
remediate actual harm to borrowers. In         13 servicers that joined the payment agreement in January 2013 had cashed or
January 2013, the Board, the OCC, and          deposited checks representing about $3.15 billion, or approximately 86 percent,
13 mortgage servicers agreed to the            of the total $3.67 billion.
payment agreement. In February 2013,
the Board and OCC issued amended
consent orders that required the servicers     Recommendations
to provide about $3.67 billion in
payments to nearly 4.2 million                 We made five recommendations to improve the Board’s oversight of future
borrowers based on possible harm and to        complex enforcement strategies. In its response to a draft of our report, the Board
provide other foreclosure prevention           generally agreed with our recommendations and noted the corrective actions that
assistance.                                    it has implemented or intends to implement.


Access the full report: http://oig.federalreserve.gov/reports/board-future-complex-enforcement-actions-oversight-sep2014.htm
For more information, contact the OIG at 202-973-5000 or visit http:/oig.federalreserve.gov.
Summary of Recommendations, OIG Report No. 2014-SR-B-015
  Rec. no.   Report page no.                    Recommendation                               Responsible offices
     1             14          Develop a framework to guide planning, vetting,          Division of Banking Supervision
                               and approving activities for large, complex                and Regulation, Division of
                               enforcement strategies that may involve multiple           Consumer and Community
                               institutions, multiple Board divisions, or multiple         Affairs, and Legal Division
                               Reserve Banks. This framework could include
                               planning and risk assessment activities such as
                                    a.   identifying key risks and possible risk-
                                         mitigating activities.
                                    b.   assessing the feasibility of the intended
                                         corrective action.
                                    c.   vetting possible alternatives.
                                    d.   identifying documentation standards for
                                         the relevant initiative.
                                    e.   defining performance measures as
                                         indicators of success and creating key
                                         interim milestones to monitor progress.
                                    f.   assessing whether service-level
                                         agreements could be used to incentivize
                                         vendor performance consistent with
                                         expectations.
                                    g.   identifying key assumptions.
                                    h.   assessing whether the Board has the
                                         necessary skill sets and the resources
                                         available to oversee the intended
                                         corrective action.
                                    i.   defining roles and responsibilities among
                                         the Board team overseeing the corrective
                                         action.
     2             17          Identify the circumstances in which project              Division of Banking Supervision
                               management resources should be used and                    and Regulation, Division of
                               develop a staffing plan to include project                 Consumer and Community
                               management resources with appropriate subject-              Affairs, and Legal Division
                               matter expertise for those situations.
     3             23          Assess the potential impact of data reliability issues   Division of Banking Supervision
                               as part of the complex enforcement strategies              and Regulation, Division of
                               framework described in recommendation 1.                   Consumer and Community
                               Specifically, consider how data availability or             Affairs, and Legal Division
                               reliability issues may impact the feasibility of the
                               exercise or the consistency of its results. As part of
                               this analysis, consider whether alternative
                               enforcement strategies can be adopted that
                               mitigate or eliminate these challenges. As
                               appropriate, these strategies should be developed,
                               vetted, and approved as part of the planning
                               process.
     4             25          Finalize an approach to end the payment                  Division of Banking Supervision
                               agreement, including developing, in coordination           and Regulation, Division of
                               with the Office of the Comptroller of the Currency, a      Consumer and Community
                               strategy to appropriately allocate any funds                Affairs, and Legal Division
                               remaining in the Qualified Settlement Funds that
                               have not been cashed or deposited by borrowers,
                               and continuing efforts to locate uncompensated
                               borrowers.
     5             25          As part of future agreements involving payments to       Division of Banking Supervision
                               harmed consumers, identify potential options for           and Regulation, Division of
                               distributing any residual amounts as part of the           Consumer and Community
                               planning process.                                           Affairs, and Legal Division
September 30, 2014

MEMORANDUM

TO:             Distribution List

FROM:           Melissa Heist
                Associate Inspector General for Audits and Evaluations

SUBJECT:        OIG Report No. 2014-SR-B-015: Opportunities Exist to Enhance the Board’s Oversight
                of Future Complex Enforcement Actions

The Office of Inspector General (OIG) has completed its final report on the subject evaluation. We
conducted this evaluation to (1) evaluate the Board of Governors of the Federal Reserve System’s (Board)
overall approach to oversight of the amended consent orders, (2) determine the effectiveness of the
Board’s oversight of the slotting process, and (3) determine the effectiveness of the Board’s oversight of
the paying agent, Rust Consulting, Inc.

Our report contains five recommendations to enhance the Board’s oversight of future complex
enforcement actions. In your response, you stated that you generally agreed with our recommendations
and that you will leverage information learned throughout the IFR process and the implementation of the
payment agreement for similar complex enforcement actions in the future. We have included your
response as appendix C in our report.

We appreciate the cooperation that we received from the Board’s Division of Banking Supervision and
Regulation, the Division of Consumer and Community Affairs, and the Legal Division. Please contact me
if you would like to discuss this report or any related issues.

cc:   Tonda Price
      Jack Jennings
      Suzanne Killian
      Richard Ashton
      Sarah Dahlgren
      Michael Johnson
      Catharine Lemieux
      William Mitchell
      J. Anthony Ogden

Distribution:
Michael S. Gibson, Director, Division of Banking Supervision and Regulation
Eric S. Belsky, Director, Division of Consumer and Community Affairs
Scott G. Alvarez, General Counsel, Legal Division
  Contents



Introduction ................................................................................................................... 1

          Objectives ............................................................................................................. 1
          Background ........................................................................................................... 2

Finding 1: The Board’s Advance Planning Efforts Were Not
Commensurate With the Agreement’s Complexity ............................................ 11

          The Board Prepared Limited Documentation Outlining Its Plans to Oversee
           This Unprecedented Enforcement Strategy ..................................................... 11
          The Board Sought to Negotiate the Payment Agreement as Quickly as
           Possible ............................................................................................................ 13
          Summary ............................................................................................................. 13
          Recommendation ................................................................................................ 14
          Management’s Response ................................................................................... 14
          OIG Comment ..................................................................................................... 14

Finding 2: The Board Did Not Use a Project Management Function to
Support This Complex Initiative ............................................................................. 15

          Senior Board Officials Conducted Day-to-Day Oversight Activities for the
            Payment Agreement ........................................................................................ 15
          A Project Management Function Could Allow the Board to Better Allocate
            Resources to Support Complex Projects ......................................................... 16
          Summary ............................................................................................................. 16
          Recommendation ................................................................................................ 17
          Management’s Response ................................................................................... 17
          OIG Comment ..................................................................................................... 17

Finding 3: Data Integrity Issues With the Servicers’ Systems Impacted
the Reliability and Consistency of the Slotting Results ................................... 18

          Board Staff Identified Weak or Missing Data in Two Servicers’
            Systems ........................................................................................................... 18
          Board Staff Provided Guidance to Ensure Consistency Among the
            Servicers .......................................................................................................... 21
          Board Staff Emphasized Speed and Provided Broad Objectives ....................... 21
          Similarly Situated Borrowers May Have Received Different Payment
            Amounts ........................................................................................................... 22
          Summary ............................................................................................................. 23
          Recommendation ................................................................................................ 23
          Management’s Response ................................................................................... 23
          OIG Comment ..................................................................................................... 23
Finding 4: The Board Has Not Finalized a Strategy to End the
Payment Agreement .................................................................................................. 24

          Board Officials Acknowledged That It Is Unlikely That All Checks Will Be
           Cashed or Deposited ....................................................................................... 24
          Management Actions Taken During Evaluation .................................................. 25
          Recommendations .............................................................................................. 25
          Management’s Response ................................................................................... 25
          OIG Comment ..................................................................................................... 25

Appendix A: Scope and Methodology .................................................................. 26

Appendix B: Results of the Servicer’s Slotting and the Payment
Amounts ....................................................................................................................... 27

Appendix C: Management’s Response ................................................................. 28
Introduction



Objectives
          The Office of Inspector General (OIG) conducted an evaluation of the Board of Governors of the
          Federal Reserve System’s (Board) oversight of the Independent Foreclosure Review (IFR)
          payment agreement.1 In January 2013, the Board and the Office of the Comptroller of the
          Currency (OCC)2 agreed to the payment agreement with certain mortgage servicers to provide
          approximately $3.67 billion in payments to approximately 4.2 million borrowers based on
          possible harm.3 The payment agreement replaced requirements in consent orders that the Board,
          the OCC, and the Office of Thrift Supervision (OTS) issued in 2011 and 2012 to address deficient
          mortgage loan servicing and foreclosure processing practices.4 Those consent orders had
          established the Independent Foreclosure Review (IFR)—a prior effort to identify and remediate
          actual harm to borrowers.

          In February 2013, the Board and the OCC issued amended consent orders. Under the amended
          orders, servicers slotted borrowers into various categories of possible harm established by Board
          and OCC staff. After the servicers subject to the amended orders placed borrowers in the various
          categories, the Board and the OCC published payment amounts for each category ranging from
          $300 to $125,000. The servicers selected Rust Consulting, Inc. (Rust) as the paying agent to
          administer the payment agreement and distribute checks to borrowers, and the Board and the
          OCC did not object to this selection. Our objectives for this evaluation were to (1) evaluate the
          Board’s overall approach to oversight of the amended consent orders issued in February 2013,
          (2) determine the effectiveness of the Board’s oversight of the slotting process, and (3) determine
          the effectiveness of the Board’s oversight of the servicers’ paying agent, Rust. For additional
          information regarding our scope and methodology, see appendix A.




1.   The Board is responsible for supervising and regulating a variety of financial institutions, such as bank holding companies,
     including financial holding companies formed under the Gramm-Leach-Bliley Act; foreign banks with U.S. operations; and
     state-chartered banks that are members of the Federal Reserve System. The Federal Reserve System consists of the Board of
     Governors of the Federal Reserve System and 12 regional Federal Reserve Banks. Subject to the Board’s oversight and
     direction, the responsible Federal Reserve Banks conduct ongoing supervision of these financial institutions.

2.   The OCC’s primary mission is to charter, regulate, and supervise all national banks and federal savings associations.

3.   The Board’s amended consent orders associated with the payment agreement are available at
     http://www.federalreserve.gov/newsevents/press/enforcement/20130228a.htm.

4.   In April 2011, the Board, the OCC, and OTS issued 24 consent orders against 16 financial institutions engaged in residential
     mortgage servicing activities. The Federal Deposit Insurance Corporation was also an issuing agency for one of the April
     2011 consent orders. Additionally, in September 2011 and April 2012, the Board issued 2 more consent orders. Together,
     these 26 orders established the IFR. Board enforcement actions issued in 2011 are available at
     http://www.federalreserve.gov/newsevents/press/enforcement/2011enforcement.htm.




2014-SR-B-015                                                                                                                1
Background
         In 2010, reports of widespread irregularities and potential violations of law in the documentation
         and processing of foreclosures prompted some mortgage servicers to temporarily suspend certain
         foreclosures in process. Congress held hearings to examine these issues. During the fourth quarter
         of 2010, the Federal Reserve System, the OCC, OTS, and the Federal Deposit Insurance
         Corporation initiated a horizontal review to assess the potential impact of the foreclosure
         processing issues of certain mortgage servicers.


         Horizontal Review of Mortgage Servicer Foreclosure Practices
         Resulted in Enforcement Actions
         The interagency horizontal review sought to evaluate the adequacy of controls and governance
         over servicers’ foreclosure processes and to assess servicers’ authority to foreclose. The Board
         assembled a team from its Division of Banking Supervision and Regulation (BS&R), Division of
         Consumer and Community Affairs (DCCA), and Legal Division to oversee the horizontal review,
         with the assistance of staff from certain Reserve Banks.

         In April 2011, the Federal Reserve System, the OCC, and OTS published a report describing the
         results of the horizontal review.5 The report outlined deficiencies and weaknesses in foreclosure
         processing, including inadequate monitoring and control of foreclosure activities and weak
         quality control and internal audit procedures. The report also identified that individuals employed
         by the servicers signed foreclosure-related affidavits filed in state courts, but they often did not
         personally check the documents for accuracy or possess the level of knowledge of the information
         they attested to in those affidavits.

         On April 13, 2011, the Board, the OCC, and OTS issued consent orders to the following 14
         mortgage servicers and their subsidiaries to address the issues identified during the horizontal
         review:

              1. Ally Financial, Inc.; Ally Bank; Residential Capital, LLC; and GMAC Mortgage, LLC
                 (hereafter, GMAC)
              2. Aurora Bank FSB (hereafter, Aurora)
              3. Bank of America Corporation and Bank of America (hereafter, Bank of America)
              4. Citigroup Inc.; Citibank; CitiMortgage, Inc.; and CitiFinancial Credit Co. (hereafter,
                 Citibank)
              5. EverBank Financial Corp. and EverBank (hereafter, EverBank)
              6. HSBC North America Holdings, Inc.; HSBC Bank USA; and HSBC Finance Corporation
                 (hereafter, HSBC)
              7. IMB HoldCo LLC and OneWest Bank, FSB (hereafter, OneWest)
              8. JPMorgan Chase & Co., JPMorgan Chase Bank, and EMC Mortgage (hereafter,
                 JPMorgan Chase)
              9. MetLife, Inc., and MetLife Bank (hereafter, MetLife Bank)

5.   Federal Reserve System, Office of the Comptroller of the Currency, and Office of Thrift Supervision, Interagency Review of
     Foreclosure Policies and Practices, April 2011,
     http://www.federalreserve.gov/boarddocs/rptcongress/interagency_review_foreclosures_20110413.pdf.




2014-SR-B-015                                                                                                            2
              10. PNC Financial Services Group, Inc.; PNC Bank; and PNC Mortgage (hereafter, PNC)
              11. Sovereign Bank (hereafter, Sovereign)6
              12. SunTrust Banks, Inc.; SunTrust Bank; and SunTrust Mortgage, Inc. (hereafter, SunTrust)
              13. U.S. Bancorp, U.S. Bank, U.S. Bank Home Mortgage, and U.S. Bank Consumer Finance
                  (hereafter, U.S. Bank)
              14. Wells Fargo & Company and Wells Fargo Bank (hereafter, Wells Fargo)

         Of these 14 servicers, 4 had mortgage servicing subsidiaries supervised by specific Reserve
         Banks under delegated authority from the Board—GMAC, HSBC, SunTrust, and JPMorgan
         Chase.7 Additionally, in September 2011 and April 2012, the Board issued similar consent orders
         to Goldman Sachs and Morgan Stanley.8 Issuing these enforcement actions raised the total
         number of mortgage servicers subject to foreclosure consent orders to 16. These consent orders
         included provisions that required servicers to retain independent consultants to review foreclosure
         activity to identify whether mortgage borrowers with loans serviced by the respective institutions
         whose home was in the foreclosure process during 2009 or 2010 suffered financial injury due to
         servicer errors or deficiencies. The term IFR refers to the file review process combined with an
         outreach process designed to make borrowers aware of the opportunity for a file review. Board
         staff worked with dedicated teams from the Reserve Banks of Atlanta, Chicago, and New York to
         monitor compliance with the consent orders for servicers supervised by the Board.


         Independent Foreclosure Review

         The consent orders that established the IFR alleged that the servicers used unsafe and unsound
         practices to process mortgage foreclosures. Specifically, the orders alleged that servicers (1) filed
         or caused to be filed in state courts affidavits asserting that the affiant had personal knowledge of
         the facts contained, when in many cases he or she did not; (2) failed to sufficiently respond in a
         timely manner to the increase in foreclosures by increasing staffing and managerial resources;
         and (3) failed to have adequate internal controls, policies and procedures, compliance risk
         management, and training.

         To address these issues, the consent orders required the servicers subject to the orders to make
         extensive changes in servicing and foreclosure processes. In addition, the orders required
         servicers to retain independent consultants to conduct a comprehensive foreclosure file review of
         each servicer’s foreclosure activity in 2009 and 2010 to identify financial harm to individual
         borrowers that resulted from deficient foreclosure practices and to provide compensation or other
         remedy for that harm.




6.   Sovereign was acquired by the Santander Group in 2009 and changed its name to Santander in 2013.

7.   HSBC and JPMorgan Chase had residential mortgage operations that were supervised by the Board in addition to separate
     residential mortgage operations that were supervised by the OCC. The Board and the OCC issued separate consent orders
     and consent orders amendments for the relevant institutions.

8.   The mortgage servicing subsidiary of The Goldman Sachs Group, Inc., and Goldman Sachs Bank USA was Litton Loan
     Servicing LP (hereafter, Goldman Sachs). The mortgage servicing subsidiary of Morgan Stanley was Saxon Mortgage
     Services, Inc. (hereafter, Morgan Stanley).




2014-SR-B-015                                                                                                         3
          One official explained that as a result of the horizontal review, Board officials knew that some
          borrowers may have been harmed, but they did not know the extent of the harm. The IFR process
          allowed borrowers who felt they were harmed by these servicing practices to submit a request for
          review. In response, the independent consultants would review the borrower’s mortgage file to
          determine whether any harm occurred and to assess the extent of the potential injuries. In
          addition, the IFR consent orders required the independent consultants to perform look-back
          reviews to identify harmed borrowers who may not have submitted a request for review.

          The IFR covered more than 4.4 million borrowers who had a mortgage on their primary residence
          in any stage of the foreclosure process in 2009 or 2010 that was serviced by one of the 16
          financial institutions subject to the consent orders.9 The six mortgage servicing subsidiaries
          supervised by Reserve Banks serviced approximately 16 percent of the 4.4 million mortgage
          loans.

          In June 2012, the Board and the OCC published a financial remediation framework to guide
          remediation for the IFR.10 The framework listed various categories of harm and suggested
          remedies, such as suspending foreclosures in process, correcting credit reports, and paying
          borrowers for the financial injury. Lump sum payments suggested in the IFR financial
          remediation framework ranged from $500 to more than $125,000.

          Under the IFR, the Board and the OCC attempted to implement the corrective action and
          remediate harm at an individual-borrower level through a file review process for more than
          4.4 million borrowers across multiple financial institutions. Board staff characterized the IFR as a
          “highly unusual undertaking,” unlike anything the Board had previously undertaken, as
          enforcement actions typically address weaknesses and deficiencies in a financial institution’s
          internal controls and risk management practices. Further, oversight of the IFR involved a shift
          from the Board’s standard practice for overseeing a consent order. Board staff explained that
          typically, day-to-day oversight of compliance with consent orders is delegated to the Reserve
          Bank responsible for supervising the relevant institution. For the IFR, however, Board staff
          provided ongoing guidance to the oversight process, with staff at the three Reserve Banks
          interacting with the relevant servicers and their independent consultants on a regular basis.

          As the supervisory process progressed from the interagency horizontal review to the IFR, the
          Board preserved the continuity of the team overseeing the project. The project team that
          supervised the horizontal review became responsible for overseeing the IFR and the work
          performed by the independent consultants.

          By November 2012, the IFR had been ongoing for about 18 months, but no money had been
          provided to any of the borrowers. As of December 2012, the independent consultants for the IFR
          file reviews had billed about $1.8 billion to the respective servicers.

9.   “Any stage of the foreclosure process” included all foreclosure processing beginning with the borrower’s mortgage loan
     being referred to the servicers’ foreclosure department, which is sometimes referred to as initiating foreclosure, up to and
     including a foreclosure sale or the servicer rescinding the foreclosure. Servicers have different practices, but typically,
     mortgage servicers refer mortgages to their foreclosure departments after the borrower is more than 90 days in default.

10. Office of the Comptroller of the Currency and Board of Governors of the Federal Reserve System, Financial Remediation
    Framework for Use in the Independent Foreclosure Review, June 21, 2012,
    http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20120621b2.pdf.




2014-SR-B-015                                                                                                                 4
         The IFR process received intense scrutiny from Congress and the U.S. Government
         Accountability Office (GAO). For example, one congressional hearing questioned the
         independence of the consultants hired to conduct the IFR. Additionally, members of Congress
         questioned the transparency surrounding the effort and sent various letters to the Board seeking
         additional information concerning the IFR. During our interviews, Board officials responsible for
         supervising the IFR explained that reviewing mortgage files was complex because of all the
         variables involved. A GAO report indicated that according to independent consultants, a
         mortgage file could comprise as many as 50 separate documents and consist of 2,000 pages or
         more to be reviewed.11


         Payment Agreement

         In light of the delays associated with the IFR, Board and OCC staff began negotiating an
         agreement to end the IFR with the servicers subject to the IFR in late 2012. The agencies
         transitioned to the payment agreement to provide remediation to borrowers in a timelier manner
         than would have occurred under the IFR process. According to a GAO report, an OCC official
         estimated that the file reviews may have taken an additional two years to complete. Based on
         OCC data, the Board estimated that the servicers may have had to pay the independent
         consultants an additional $2.0 billion to complete the file reviews. In our opinion, the IFR’s lack
         of success in distributing remediation to borrowers resulted in a heightened sense of urgency to
         provide remediation to borrowers under the payment agreement.

         Beginning on January 7, 2013, the Board and the OCC signed the payment agreement term sheets
         with 13 of the servicers.12 The term sheets replaced the IFR mortgage file review requirements
         with an agreement to provide approximately $3.67 billion in cash payments to borrowers.13 The
         deadlines contained in the term sheets between the Board and the OCC and the relevant servicers
         evidenced this urgency to act quickly. Under the terms of the payment agreement, the Board
         provided a 30-day deadline for the servicers to complete their validations and an additional
         15 days for the Reserve Bank dedicated team reviews to be completed—that is, by February 21,
         2013, for servicers that signed payment agreement term sheets in January 2013.

         As the Board transitioned from the IFR to the payment agreement, the same Board staff who
         managed the interagency horizontal review and the IFR process became responsible for managing
         the payment agreement, including overseeing the remaining IFR consent order requirements, the
         check issuance process, and the paying agent. Board officials preserved the continuity of the
         oversight team due to the steep learning curve associated with this unique project. According to

11. U.S. Government Accountability Office, Foreclosure Review: Lessons Learned Could Enhance Continuing Reviews and
    Activities Under Amended Consent Orders, GAO-13-277, March 2013.

12. The 13 servicers were (1) Aurora, (2) Bank of America, (3) Citibank, (4) Goldman Sachs, (5) HSBC, (6) JPMorgan Chase,
    (7) MetLife Bank, (8) Morgan Stanley, (9) PNC, (10) Sovereign, (11) SunTrust, (12) U.S. Bank, and (13) Wells Fargo. In
    January 2013, EverBank, GMAC, and OneWest had not agreed to the payment agreement. In July 2013, the Board
    announced that GMAC had agreed to the payment agreement. Subsequently, EverBank agreed to the payment agreement,
    and remediation began for eligible OneWest borrowers under the original IFR.

13. The payment agreement also required the servicers to provide $5.7 billion in other assistance, such as loan modifications and
    forgiveness of deficiency judgments. The amended consent orders left intact the requirements for the servicers to improve
    their foreclosure practices that were in the 2011 and 2012 consent orders.




2014-SR-B-015                                                                                                             5
       Board staff, the Board has not undertaken enforcement actions of the size of the payment
       agreement. Also, similar to the IFR, the Board retained responsibility for overseeing compliance
       with the amended consent orders in addition to the oversight responsibilities typically delegated
       to the Reserve Banks.


       Payment Agreement Borrower Slotting Process

       The Board and the OCC issued the guidance defining the waterfall categories on January 8, 2013,
       and clarified that guidance 10 days later, on January 18, 2013. The guidance to the servicers
       defined 11 categories of potential borrower harm, known as the IFR waterfall. Definitions for the
       categories are in table 1.


       Table 1: IFR Payment Agreement Categories

            Number      Category description
                                                              a
        1a              Servicemembers Civil Relief Act (SCRA) sections 533 and 521
        1b              SCRA section 527 interest rate protection
        2               Borrower not in default
        3               Foreclosure while in bankruptcy
        6               Performing forbearance plan
        4               Failure to convert trial plan
        5               Performing trial period plan
        10              Modification approvals
        7               Denied modification
        8               No decision
        9               No loss mitigation engagement
        11              Other
        Source: OIG analysis of Board and OCC documents.

        Note: The categories listed are not in numerical order. For the slotting, borrowers were to flow down
        through the waterfall in the order in which the categories appear in this table. Board staff explained
        that the Board and the OCC decided that all borrowers denied a modification would be slotted into
        category 7. Thus, the Board and the OCC combined two subcategories that had previously been
        listed separately in a draft of the IFR waterfall. For more information on the categories, see
        appendix B.

        a
         The SCRA provides relief to active duty servicemembers so that members of the Armed Forces can
        focus their full attention on their military responsibilities. Some of the relief provided under the SCRA
        includes reducing the rate of interest for debts incurred before entering active duty to six percent and
        protecting servicemembers against default judgments, evictions, mortgage foreclosures, and
        repossessions of property.


       The categories in the IFR waterfall were similar to those in the June 2012 financial remediation
       framework. The IFR waterfall guidance differentiated potential harm to borrowers by the stage of
       foreclosure (in progress, complete, or rescinded) and by whether the borrower had requested a
       review of his or her loan file under the IFR.



2014-SR-B-015                                                                                                       6
       One Board official explained that for the payment agreement, the Board transitioned to a process
       that required no action to receive a check by most borrowers, unlike the IFR, which may have
       required a borrower to submit a request for review or be part of the look-back population to
       obtain remediation. Under the terms of the payment agreement, once the servicers submitted
       completed waterfalls that were validated by the servicer’s internal audit or compliance function
       and reviewed by the Reserve Bank, the borrower’s placement was deemed final and could not be
       appealed. The payment agreement prohibited servicers from requiring borrowers to waive any
       legal claims they may have against their servicer as a condition of accepting a payment.

       After finalizing the terms of the payment agreement, the Board and the OCC published amended
       consent orders in February 2013, which replaced the IFR file review requirements in the original
       consent orders issued in 2011 and 2012. Table 2 shows the dates the Board, the OCC, and other
       agencies issued the IFR consent orders to the servicers and when the servicers agreed to the
       payment agreement.


       Table 2: IFR and IFR Payment Agreement Participating Servicers
                                           Date the IFR consent            Month and year the servicer
                                           orders were issued by           agreed to the payment
        Banking institutions               the Board, the OCC,             agreement with the Board
                                           and other agencies              and the OCC
         1    Aurora                       April 13, 2011                  January 2013
         2    Bank of America              April 13, 2011                  January 2013
         3    Citibank                     April 13, 2011                  January 2013
         4    EverBank                     April 13, 2011                  August 2013
         5    GMAC                         April 13, 2011                  June 2013
         6    Goldman Sachs                September 1, 2011               January 2013
         7    HSBC                         April 13, 2011                  January 2013
         8    JPMorgan Chase               April 13, 2011                  January 2013
         9    MetLife Bank                 April 13, 2011                  January 2013
        10    Morgan Stanley               April 2, 2012                   January 2013
                                                                           Did not participate in the
        11    OneWest                      April 13, 2011
                                                                           payment agreement
        12    PNC                          April 13, 2011                  January 2013
        13    Sovereign                    April 13, 2011                  January 2013
        14    SunTrust                     April 13, 2011                  January 2013
        15    U.S. Bank                    April 13, 2011                  January 2013
        16    Wells Fargo                  April 13, 2011                  January 2013
        Source: OIG analysis of Board and OCC documents.

        Note: Bolded institutions have a mortgage servicer subsidiary supervised by the Board, and shaded rows
        indicate the five servicers whose slotting process was within the scope of this OIG evaluation. HSBC and
        JPMorgan Chase also had separate mortgage servicing operations supervised by the OCC.




2014-SR-B-015                                                                                                      7
         Of the 13 servicers that agreed to the payment agreement in January 2013, 5 were supervised by
         Reserve Banks—Goldman Sachs, HSBC, JPMorgan Chase, Morgan Stanley, and SunTrust. As
         required by the terms of the payment agreement, these servicers began slotting borrowers into the
         waterfall categories, the servicers’ internal audit functions validated the slotting, and the
         responsible Reserve Bank dedicated teams reviewed the validation.

         The Reserve Bank dedicated teams prepared, and the Board’s team overseeing the initiative
         approved, guidance to the Reserve Bank teams called the Complex Servicers Mortgage
         Foreclosure Supervisory Expectations (Supervisory Expectations). This guidance addressed
         monitoring the implementation of the payment agreement term sheets and sought to ensure, to the
         extent possible, consistency of the slotting review. The slotting, validation, and review processes
         were iterative and involved multiple meetings of the Board, the OCC, the Reserve Bank dedicated
         teams, the servicers, and the servicers’ internal audit functions. Throughout this process, the
         Board had conference calls and meetings with Reserve Bank staff to ensure consistent results.

         Under the terms of the payment agreement, servicers had the option to use their IFR independent
         consultants to conduct mortgage file reviews to determine harm to borrowers who fit into
         categories 1a, 1b, and 2. Category 1 pertained to violations of the Servicemembers Civil Relief
         Act (SCRA), such as foreclosing on an active duty servicemember, and included a subcategory
         (category 1b) related to charging a servicemember interest rates above SCRA caps. Category 2
         pertained to borrowers who were not in default at the time of the foreclosure actions.14 Servicers
         could slot borrowers into categories 1a and 2 using automatic system queries, or they could elect
         to have their independent consultant complete file reviews to slot borrowers into categories 1a or
         2. If the independent consultant’s file review determined that the borrower had not suffered harm
         as defined by categories 1a or 2, those borrowers were placed into the next highest applicable
         waterfall category.15 As one Board officer explained, the Board allowed the file review to
         continue for these categories because these situations involved some of the more egregious types
         of harm to borrowers. According to this Board official, IFR independent consultants reported that
         they had made significant progress reviewing files to determine these types of harm during the
         IFR file review process.

         The payment agreement term sheets imposed an aggressive deadline for completing the slotting,
         validation, and review process. Under the payment agreement, the term sheets provided a 30-day
         deadline for the servicers to complete their validations and 15 additional days for the Reserve
         Bank dedicated team reviews to be completed—that is, by February 21, 2013, for servicers that
         signed payment agreement term sheets in January 2013. During this time frame, servicers
         requested more time to complete their waterfall submissions. Based on the documentation we


14. Under the Board’s and the OCC’s IFR waterfall guidance, a borrower was not considered to be in default if he or she was
    less than 60 days in default on his or her mortgage loan at the time the servicer referred the borrower to the servicer’s
    foreclosure department.

15. Of the five servicers within the scope of our evaluation, one chose to slot borrowers into these categories without its
    independent consultant reviewing files, and four elected to have their independent consultants determine harm for these
    categories. Further, under the IFR waterfall guidance, for borrowers who potentially fit into category 1b, servicers could
    elect to have their independent consultant perform file reviews to determine the appropriate placement of those borrowers.
    Alternatively, for category 1b, the servicers could forgo having their independent consultant conduct the file review and
    instead slot those borrowers into the next-highest waterfall category for which the borrower was eligible. Two of the five
    servicers within the scope of this evaluation slotted borrowers into category 1b.




2014-SR-B-015                                                                                                             8
         reviewed, the Board-supervised servicers submitted their final waterfalls to the Board during the
         March 11, 2013–April 3, 2013, time frame.

         On April 9, 2013, after servicers had finalized their waterfalls, the Board and the OCC published
         a payment distribution plan for 11 of the 13 servicers.16 Payment amounts ranged from $300 to
         $125,000, and a few borrowers were eligible for additional variable payments—reimbursement
         for equity plus interest. Payments received under the payment agreement did not preclude
         borrowers from pursuing any legal actions against the servicer. Appendix B depicts the waterfall
         categories, the payment amounts, and the results of the servicers slotting exercises, with the total
         number of borrowers slotted into each category, for all 13 participating servicers that agreed to
         the payment agreement in January 2013, including the servicers supervised by the OCC.


         Oversight of the Payment Agreement Check Issuance Process

         The servicers selected Rust as the paying agent to administer the payment agreement, and the
         Board and the OCC did not object to the selection. The payment agreement term sheets and the
         amended consent orders identified Rust as the paying agent. Board staff based their nonobjection
         on Rust’s prior knowledge of and possession of data regarding the borrower population and its
         familiarity with the servicers’ systems given its role in serving as the administrator for the
         original IFR.

         Board staff did not object to the statements of work (SOWs)17 between Rust and the Board-
         regulated servicers. Board and OCC staff provided the oversight for Rust’s activities despite the
         fact that neither the Board nor the OCC were parties to those contracts. While the Board was not
         a party to the SOWs, the contracts described many tasks that Rust would conduct under the
         oversight and at the direction of the Board and the OCC. As required by the SOWs, Rust
         provided periodic reports to the Board and the OCC. Also, Rust submitted invoices to the
         servicers for payment, as the amended consent orders required the servicers to pay for the
         administrative costs associated with the payment agreement.

         Rust functioned as the paying agent administering the payment agreement. To print and mail the
         checks, Rust hired a subcontractor, Quad/Graphics, Inc. (Quad/Graphics), and Rust selected The
         Huntington National Bank to manage the payment agreement Qualified Settlement Fund (QSF)
         accounts and clear the checks. Rust and the other third parties’ activities in support of the
         payment agreement have included, among other activities, the following:

              1. The Huntington National Bank maintained QSF accounts in which the servicers
                 deposited funds, as required by the payment agreement’s terms.
              2. The servicers provided borrower data to Rust, such as borrower name, address, and
                 waterfall categorization.

16. The payment distribution plan for the two other participating servicers, Goldman Sachs and Morgan Stanley, was published
    by the Board on April 29, 2013. This plan was similar to the plan for the other servicers, but it did not differentiate
    borrowers according to whether they had submitted a request for review under the IFR because Goldman Sachs and
    Morgan Stanley started their IFR processes later and borrowers did not have the same opportunity to submit such as request.

17. Typically, an SOW is written according to the terms of a master agreement between a client and its vendor. Examples of
    items generally delineated in SOWs include objectives, resources, the period of performance, roles and responsibilities,
    requirements, acceptance criteria, and deliverables.




2014-SR-B-015                                                                                                             9
           3. Rust sent the borrower data to Quad/Graphics.
           4. Quad/Graphics printed the checks and accompanying documentation, such as cover
              letters, envelopes, and tax reporting forms, as required.
           5. Quad/Graphics delivered the checks and accompanying documentation to the U.S. Postal
              Service to be mailed.
           6. Quad/Graphics monitored the check delivery process and provided related data to Rust.
           7. Rust received and processed mail returned by the Postal Service as undeliverable.
           8. The Huntington National Bank cleared the checks that borrowers cashed or deposited
              with various financial institutions and check cashing establishments.
           9. Rust managed a call center to respond to borrower inquiries.

       Beginning in March 2013, Rust mailed postcards to approximately 4.2 million borrowers alerting
       them that a payment agreement had been reached and that checks would be mailed. Rust mailed
       the checks in separate batches, and all checks had a 90-day expiration date. The vendor mailed
       the first batch of approximately 1.4 million checks on April 12, 2013. Rust sent most of the
       approximately 223,000 checks to Morgan Stanley and Goldman Sachs borrowers on May 3,
       2013. For the initial 13 servicers, borrowers had cashed or deposited checks worth approximately
       $3.15 billion, as of August 15, 2014.




2014-SR-B-015                                                                                    10
 Finding 1: The Board’s Advance Planning Efforts Were
 Not Commensurate With the Agreement’s Complexity


       The Board staff’s advance preparation and planning efforts for the payment agreement were not
       commensurate with the agreement’s complexity. The Board was responsible for overseeing the
       corrective action at an individual-borrower level for more than 4 million borrowers on an
       interagency basis across multiple mortgage servicers supervised by three Reserve Banks.
       Nevertheless, the Board engaged in limited planning activities for this unprecedented
       enforcement strategy. When a financial institution is subject to an enforcement action involving
       significant corrective action, the enforcement action typically requires the relevant institution to
       submit a detailed implementation plan to its Reserve Bank or to the Board for approval. We
       attribute the Board’s limited planning to the compressed time frame associated with the transition
       from the IFR to the payment agreement and the aggressive deadlines imposed by the term sheets
       so that remediation could be provided to borrowers as quickly as possible. The Board’s limited
       planning activities represent a missed opportunity to assess the feasibility of implementing the
       payment agreement; to define the success measures for the payment agreement, such as the
       percentage of borrowers cashing or depositing a check; to assess whether the Board had the
       requisite skills and capabilities to oversee the exercise; to consider the possible risks associated
       with its chosen course of action, including measures to mitigate those potential risks; and to vet
       fully alternative courses of action.


The Board Prepared Limited Documentation Outlining Its Plans to
Oversee This Unprecedented Enforcement Strategy
       In general, there was limited formal documentation of the Board staff’s planning activities for the
       payment agreement. Based on interviews, we understand that Board staff held meetings internally
       and with the servicers and OCC staff during the negotiation of the payment agreement and
       provided briefings to senior Board officials on the merits and risks associated with the proposed
       payment agreement. For some of these meetings, Board staff prepared briefing materials
       describing the proposed payment agreement, including the objectives, key terms, and potential
       risks of replacing the IFR with the payment agreement. We believe that planning activities should
       be commensurate with the complexity of the activity to be conducted. In our opinion, overseeing
       an unprecedented enforcement strategy such as the payment agreement should (1) involve vetting
       and planning activities prior to implementation to identify risks, (2) consider the costs and
       benefits associated with particular alternatives, and (3) anticipate foreseeable hurdles to
       successful implementation.

       Board staff did consider some inherent limitations and challenges associated with the approach as
       they prepared to announce the payment agreement. For example, in briefings to senior Board
       officials regarding the proposed payment agreement, the team acknowledged that the payment
       agreement would not identify actual harm to borrowers. While identifying actual harm was the
       goal of the IFR, under the payment agreement, the servicers slotted borrowers into various
       categories based on possible, not actual, harm. Board staff explained that borrowers did not have
       to waive any legal rights they had against the servicer as a condition of accepting their payment.




2014-SR-B-015                                                                                        11
         Additionally, the briefing materials presented to senior Board officials also acknowledged that it
         may be difficult to verify the accuracy of the servicers’ processes for slotting borrowers.

         Board staff used their briefing materials during consultations with Board members. As the Board
         has explained in a letter to Congress, prior to agreeing to the payment agreement,

                   Board staff frequently consulted with Board members. These consultations
                   included discussions with individual Board members subject to the Board
                   member’s availability. Based on these consultations, the Board’s General
                   Counsel approved entering into these actions, with the concurrence of the
                   appropriate delegee of the Director of BS&R. Consistent with the General
                   Counsel’s approval, the Deputy General Counsel signed the documentation
                   memorializing that approval.18

         Despite acknowledging challenges and inherent limitations, we believe that the briefing materials
         did not contain additional information that would have proved useful in weighing the costs and
         benefits associated with the proposed approach. Specifically, the briefing materials did not

                  detail how the Board team would oversee the slotting process or the payment process
                  assess whether Board officials had the skills necessary to oversee this complex
                   undertaking
                  identify success measures or benchmarks for the exercise, such as an estimate of how
                   many borrowers would likely obtain remediation
                  indicate whether those success measures could be incorporated into the SOWs between
                   the servicers and Rust as service-level agreements19 to incentivize performance under
                   those agreements consistent with the Board’s expectations
                  address key assumptions underpinning the exercise, such as the impact that unreliable
                   data in the servicers’ systems would have on the project’s results
                  describe possible alternatives, such as a victims’ relief fund, or outline the costs and
                   benefits associated with such an approach
                  estimate the length of time necessary to complete the payment process or outline options
                   for distributing residual funds

         While Board staff did hold planning meetings and consider some risks and possible alternatives
         as it negotiated the payment agreement, they did not record formal minutes of meetings or
         prepare a formal project plan. Board staff did, however, create a document to track progress on
         several project tasks, and approved the supervisory expectations document to guide the oversight
         of the slotting process. Board staff explained that the compressed time frame imposed by the
         payment agreement term sheets precluded formal planning activities and that engaging in such
         activities would have caused further delays in getting remediation to borrowers. Board staff said
         that they consulted with staff from other agencies familiar with these types of agreements,
         although the insights from these interactions were not formally documented. Given the lack of
         formal documentation, we could not determine the extent to which the knowledge gained from
         these other agencies informed the Board’s oversight of the implementation phase of the payment
         agreement.

18. Ben S. Bernanke, letter to Senator Elizabeth Warren and Representative Elijah Cummings, December 16, 2013.

19. Service-level agreements are performance measures defining specific expectations for the vendor’s performance.




2014-SR-B-015                                                                                                        12
       In terms of planning for its oversight of the implementation phase, the Board considered the
       foreseeable challenge of locating addresses for some borrowers. At the outset of the
       implementation of the payment agreement, Board staff explained that Rust would be able to skip
       trace borrowers who had relocated to a new address by checking various databases, such as the
       U.S. Postal Service’s national change of address database. The Board did not prepare an estimate
       of the likelihood that Rust’s skip tracing process would be effective.


The Board Sought to Negotiate the Payment Agreement as Quickly as
Possible
       We attribute Board staff’s limited advance planning to the narrow window of time between the
       decision to replace the IFR and the completion of the amended consent orders containing the
       payment agreement. Board officials emphasized providing remediation to borrowers in a timelier
       fashion than would have likely occurred had the IFR been allowed to continue. Therefore, timely
       action was a primary consideration underpinning the Board’s decision to transition to the
       payment agreement.

       Board staff began negotiating the payment agreement in late 2012. Beginning on January 7, 2013,
       the Board, the OCC, and the servicers signed the payment agreement term sheets, and the Board
       and the OCC announced the payment agreement. Board staff’s primary focus during this
       compressed time frame was negotiating the payment agreement, which afforded little time for
       adequate planning. One member of the Board’s oversight team explained that if the Board had
       stopped the IFR without an alternative that could be implemented quickly, the Board would have
       faced further stakeholder criticism. In this context, the Board prioritized replacing the IFR as
       quickly as possible with an alternative that provided payments to borrowers in a timelier manner
       than would have occurred under the IFR. This prioritization and sense of urgency limited the
       opportunity for advance planning.

       As a result of limited planning, Board staff missed opportunities to assess the feasibility of
       executing the payment agreement, its likelihood of success, and whether Board staff had the
       requisite skills and capabilities to oversee the exercise. The Board also did not fully consider
       measures to mitigate the potential risks and vet possible alternative courses of action. In our
       opinion, the sense of urgency to transition to the payment agreement and the resulting limited
       planning and preparation placed the Board’s oversight team in a position in which its approach to
       problem solving was more reactive and ad hoc than it otherwise might have been.


Summary
       The Board sought to provide payments to borrowers as quickly as possible. The short time frame
       provided in the payment agreement term sheets afforded little time for adequate planning to
       oversee this complex, unprecedented initiative. Because of this limited planning, the Board staff
       did not identify project success measures, assess the project’s likelihood of success, analyze
       alternative approaches to achieve the Board’s desired objectives, or assess whether the Board had
       the right mix of skills and expertise to manage the payment agreement.




2014-SR-B-015                                                                                     13
Recommendation
       We recommend that the Directors of BS&R, DCCA, and the Legal Division

                1. Develop a framework to guide planning, vetting, and approving activities for large,
                   complex enforcement strategies that may involve multiple institutions, multiple
                   Board divisions, or multiple Reserve Banks. This framework could include planning
                   and risk assessment activities such as

                       a. identifying key risks and possible risk-mitigating activities.
                       b. assessing the feasibility of the intended corrective action.
                       c. vetting possible alternatives.
                       d. identifying documentation standards for the relevant initiative.
                       e. defining performance measures as indicators of success and creating key
                          interim milestones to monitor progress.
                       f. assessing whether service-level agreements could be used to incentivize
                          vendor performance consistent with expectations.
                       g. identifying key assumptions.
                       h. assessing whether the Board has the necessary skill sets and the resources
                          available to oversee the intended corrective action.
                       i. defining roles and responsibilities among the Board team overseeing the
                          corrective action.


Management’s Response
       The Director of BS&R, the Director of DCCA, and the Board’s General Counsel agreed with our
       recommendation. In their consolidated response to recommendation 1, the Board officials
       indicated that they plan to leverage information learned throughout the IFR process and the
       implementation of the payment agreement to ensure an appropriate level of planning, vetting, and
       approving activities for similar enforcement actions in the future.


OIG Comment
       In our opinion, the actions described by the Division Directors and the Board’s General Counsel
       are responsive to our recommendation. We plan to follow up on the Board’s actions to ensure that
       the recommendation is fully addressed.




2014-SR-B-015                                                                                    14
 Finding 2: The Board Did Not Use a Project Management
 Function to Support This Complex Initiative


       The Board assigned three senior officials to oversee the project who, rather than serving
       exclusively in a support and guidance capacity, also engaged in time-consuming, day-to-day
       oversight, management, and implementation activities. We believe that this unprecedented
       interagency initiative would have benefitted from a project management function to assist in
       guiding the effort from planning through the execution phase with oversight and support provided
       by senior Board officials. Such an approach might have allowed the officers to delegate more of
       the daily oversight activities to the project management function, freeing the senior Board
       officials to focus more on other priorities. We attribute the significant allocation of senior Board
       officials’ time to (1) the preference for maintaining the continuity of the initial team given the
       steep learning curve associated with this project; (2) the lack of project management resources
       available to support this large, complex initiative; and (3) the unique need for quick
       decisionmaking on implementation issues associated with the payment agreement given the
       Board’s sense of urgency in providing checks to the borrowers as quickly as possible. The time
       these officers spent on this project minimized the time they could devote to other responsibilities.


Senior Board Officials Conducted Day-to-Day Oversight Activities for
the Payment Agreement
       To oversee the project, the Board assigned one senior official from each of three Board divisions:
       BS&R, DCCA, and Legal. In addition to serving in a leadership capacity for the project, however,
       these senior Board officials also engaged in day-to-day oversight, management, and
       implementation activities for the project. For example, these officers participated in multiple
       conference calls each week with their OCC counterparts, the Reserve Bank examiners assigned to
       the project, and Rust employees. In addition, in coordination with OCC staff, certain of these
       senior Board officials (1) reviewed and approved payment agreement correspondence to
       borrowers; (2) suggested changes to Rust’s operating procedures for the call center scripts and
       processes to handle undeliverable mail; (3) resolved issues faced by borrowers, especially when
       the situation involved procedural adjustments for Rust’s complaint resolution activities; and
       (4) monitored Rust’s performance to confirm resolution of issues identified on the issues log.

       Two of the senior officials noted that they spent as much as 50 to 60 percent of their time on this
       project, and the third reported spending 40 to 50 percent. According to an interviewee, one of the
       lessons learned from the IFR and a contributing factor in the significant allocation of officer time
       to this initiative was the importance of ensuring effective communication with the in-scope
       borrowers covered by the payment agreement. Another senior Board official explained that the
       direct senior official involvement allowed the oversight team to make quick decisions related to
       implementing the payment agreement.




2014-SR-B-015                                                                                        15
A Project Management Function Could Allow the Board to Better
Allocate Resources to Support Complex Projects
       While the Board does not have a policy requiring the use of project management resources in
       support of large, complex initiatives such as the payment agreement, we believe that this
       unprecedented, interagency initiative would have benefitted from such support. Board staff on the
       payment agreement project team explained that project management resources were not available
       to the team. While we understand that the Board’s senior management chose to keep the
       horizontal review and the IFR project team in place because of the team members’ familiarity
       with the project and the steep learning curve associated with this project, we believe that the
       transition from the IFR to the payment agreement presented an opportunity for the Board to
       supplement the skills of the existing team on an as-needed basis.

       Although both the IFR and the payment agreement involved Board staff oversight of Rust and the
       Reserve Bank dedicated teams, overseeing the payment agreement was different from overseeing
       the IFR. The IFR relied heavily on independent consultants to perform file reviews. The Board’s
       oversight of the payment agreement, however, involved overseeing the dedicated teams at the
       three Reserve Banks conducting the reviews of the slotting processes. Further, for the IFR, the
       oversight of Rust’s performance was primarily coordinated by a consortium of servicer officials.
       For the payment agreement, however, the Board and the OCC assumed the role of directly
       overseeing Rust’s administration of the payment agreement involving the use of multiple third
       parties. As such, the team managing the payment agreement may have benefitted from additional
       resources to coordinate such a large, complex initiative.

       Further, the Board did not have staff devoted solely to project management who could be
       available to support projects such as the payment agreement. One of the senior Board officials
       overseeing the payment agreement explained that additional resources could have been helpful to
       the project, but the Board does not typically expand staffing with temporary appointments or hire
       independent contractors to perform work. We believe that the Board should consider additional
       staffing approaches for monitoring large, complex initiatives, particularly those involving third-
       party vendor oversight.

       Finally, Board staff explained that oversight of the payment agreement required direct
       involvement of senior Board officials because of the need to resolve issues quickly. As borrowers
       faced challenges cashing or depositing their checks, Board staff held almost daily conference
       calls and a few in-person meetings with Rust employees. For example, Board and OCC staff
       suggested revisions to Rust’s operating procedures to improve processes for resolving borrowers’
       difficulties receiving checks, such as making it easier for borrowers to quickly provide their
       current address to Rust, and Rust updated its procedures and implemented the new processes
       accordingly. Our interviews revealed that the Board staff’s scrutiny of Rust’s performance during
       the payment agreement process exceeded the level of oversight Rust typically experiences.


Summary
       The same Board staff who had been previously responsible for overseeing the horizontal review
       and then the IFR were responsible for managing the payment agreement. These officials devoted
       considerable time to day-to-day oversight of the project because the Board did not have project
       management resources available to them to whom certain tasks could be delegated. The Board’s


2014-SR-B-015                                                                                      16
       oversight of the payment agreement is an example of how the Board could benefit from
       developing a staffing plan that includes project management resources. Such staff could be
       available to support large, complex Board projects, allowing the Board to better allocate
       resources, define project objectives and milestones, monitor project progress, and oversee vendor
       performance as necessary.


Recommendation
       We recommend that the Directors of BS&R, DCCA, and the Legal Division

                2. Identify the circumstances in which project management resources should be used
                   and develop a staffing plan to include project management resources with appropriate
                   subject-matter expertise for those situations.


Management’s Response
       The Director of BS&R, the Director of DCCA, and the Board’s General Counsel agreed with our
       recommendation. In their consolidated response to recommendation 2, the Board officials
       indicated that they will integrate available project management resources with appropriate
       subject-matter expertise when staffing similar complex enforcement actions in the future.


OIG Comment
       In our opinion, the actions described by the Division Directors and the Board’s General Counsel
       are responsive to our recommendation. We plan to follow up on the Board’s actions to ensure that
       the recommendation is fully addressed.




2014-SR-B-015                                                                                     17
  Finding 3: Data Integrity Issues With the Servicers’
  Systems Impacted the Reliability and Consistency of
  the Slotting Results


          During the slotting, review, and validation process, Board staff identified weak or missing data in
          two servicers’ systems.20 Board staff determined that the data could not support the slotting of
          borrowers in specific categories. As a result, the two servicers could not complete the waterfall
          processes according to the categories defined by the Board and the OCC. To address these data
          reliability issues, Board staff directed these two servicers to move borrowers to higher categories
          or refrain from excluding borrowers from higher categories. Board staff explained that these
          solutions were a conservative approach that benefitted the borrowers affected by the data
          reliability issues by placing them into the highest possible waterfall category based on the
          available data. For example, one servicer reviewed a sample of its slotting results for 255 loans
          and identified 45 incorrectly slotted borrowers, or 18 percent of the sample. The servicer
          attributed the incorrect slotting to inaccurate system data. Board staff instructed this servicer to
          not slot any borrowers by manual intervention.

          The guidance for the Reserve Bank dedicated teams’ review of the slotting sought to ensure
          consistency to the extent possible. The servicers’ internal audit functions sought to assess the
          completeness and accuracy of the servicers’ waterfalls. In our opinion, consistency to the extent
          possible was a guiding principle for this exercise, although the scope of that principle was not
          clearly defined. Board staff directed servicers to move borrowers to higher categories or not
          exclude borrowers from higher categories because the Board (1) emphasized completing the
          payment agreement as quickly as possible and (2) sought to avoid repeating the file review
          process. As a result of the servicers’ movement of borrowers into the highest possible category,
          some similarly situated borrowers may have received different payment amounts.


Board Staff Identified Weak or Missing Data in Two Servicers’
Systems
          During the Reserve Bank teams’ reviews of the servicer’s internal audit validation of the slotting
          process, Board staff identified weak or missing data in the systems of two servicers—hereafter
          referred to as Servicer A and Servicer B. Because the data were not sufficiently reliable to
          support moving borrowers out of specific waterfall payment categories, Board staff instructed
          these two servicers to move borrowers to higher waterfall categories or refrain from excluding
          borrowers from higher categories. Generally, borrowers in the higher categories received a higher
          payment amount.21 Moving borrowers into a higher waterfall category, or keeping borrowers in a
          higher waterfall category, benefitted those borrowers since they would likely receive higher

20. Board staff explained that the oversight of the slotting process was conducted jointly with the OCC. Board staff stated that
    they and OCC staff worked together to ensure consistency, to the extent possible, across all the servicers that participated in
    the payment agreement. According to Board staff, the determinations about the reliability of the servicers’ data systems and
    the directions to servicers on how to address those issues were made in coordination with OCC staff.

21. As defined by the Board and the OCC, the waterfall categories are not in numerical order. For the slotting process,
    borrowers flowed down through the waterfall in the sequential order that the categories appear in waterfall guidance. For
    more information on the categories and the payment amounts, see appendix B.




2014-SR-B-015                                                                                                               18
       payment amounts. Servicers completed the slotting process before Board and OCC staff
       determined the actual payment amounts associated with each of the categories. Therefore, the
       precise payment amounts did not affect the Board’s or the OCC’s decisionmaking with respect to
       options for addressing the data reliability issues.


       Instances of Weak or Missing Data at Servicer A

       Each Reserve Bank dedicated team drafted a conclusion memorandum to summarize the results
       of its review of the slotting process at each mortgage servicer. The Reserve Banks shared those
       memorandums with the Board to evidence completion of the review. According to the Servicer A
       Reserve Bank conclusion memorandum, Servicer A self-identified issues with the reliability of its
       servicing system data fields used to populate certain waterfall categories. To compensate for the
       data reliability issues, the servicer sampled 255 loans and performed a manual review of the
       system query results to confirm appropriate waterfall placement. As a result of the manual
       review, Servicer A reslotted a total of 45 accounts across multiple waterfall categories from the
       sample of 255 loans (18 percent). Out of the 45 incorrectly slotted borrowers, 36 were incorrectly
       slotted in what the Reserve Bank dedicated team referred to as lower-tier categories, categories 7
       through 11. Thus, based on the sample, the bulk of the servicer’s slotting errors were concentrated
       within lower waterfall categories.

       The Reserve Bank dedicated team communicated to the servicer that the reslotting of accounts
       based on the servicer’s manual intervention would not be consistent with the expectations set
       forth in the IFR waterfall definitions and the terms of the payment agreement. According to the
       Reserve Bank conclusion memorandum, the payment agreement terms required the servicer to
       slot borrowers using an objective and systematic process rather than a manual process. Board
       officials noted that the IFR was a time-consuming, manual process involving loan file reviews at
       the individual-borrower level, while the payment agreement sought to provide timelier
       remediation using an objective, systematic process. Therefore, slotting borrowers based on a
       manual process did not align with the terms of the payment agreement. As a result, the servicer
       was not permitted to slot borrowers to lower categories based on a manual review. Instead, the
       servicer revised its waterfall to reslot the 45 accounts back into the originally identified higher
       payment categories, even though manual intervention identified that those results were not
       reliable.

       Both the servicer and its internal audit function agreed that no alternative data systems existed
       with data capable to slot borrowers more accurately into the waterfall. According to the Reserve
       Bank conclusion memorandum, the definitions set forth in the waterfall guidance state that all
       accounts are to begin at the top of the waterfall (category 1a) and then flow down into lower
       waterfall categories only when servicing system data evidence that they do not meet the
       definitions of each sequential category. Under Board staff’s guidance, the Reserve Bank
       dedicated team communicated to the servicer that the data available in the servicing system were
       not sufficiently reliable to slot borrowers below category 7, and consequently, no accounts should
       be allowed to flow below that point in waterfall. Based on this directive, Servicer A truncated its
       waterfall at category 7, and approximately 83,000 borrowers who had been slotted into lower
       categories were moved to category 7, resulting in those borrowers being eligible to receive higher
       payment amounts.




2014-SR-B-015                                                                                       19
          Instances of Weak or Missing Data at Servicer B
          During the review of Servicer B’s slotting, the Reserve Bank dedicated team identified two
          instances in which the measures the servicer took “to compensate for weak or missing system
          data did not yield the most favorable outcome to the borrower.” These instances also prevented
          movement of certain borrowers out of higher payment categories.

          First, the Reserve Bank dedicated team recognized that the data used to place borrowers into the
          bankruptcy category, category 3, were weak or missing. Based on prior supervisory work
          performed during the IFR, the Reserve Bank dedicated team was aware that the servicer’s system
          indicator for active bankruptcy was unreliable. After discussions among the Reserve Bank
          dedicated team, the servicer, and Board staff, the servicer agreed to purchase Public Access to
          Court Electronic Records (PACER) data and rely solely on this external data source to place
          borrowers into category 3.

          The servicer extracted dates from PACER to identify borrowers in active bankruptcy at the time
          the foreclosure action occurred and determine whether the borrowers should be excluded from the
          category due to a court-granted motion for relief from stay on the borrower’s mortgage loan,
          which would have permitted the foreclosure to proceed. Due to time constraints, however, the
          servicer was only able to extract the necessary PACER motion for relief from stay data for
          approximately 14,000 of 26,000 borrowers identified as having been in active bankruptcy. About
          72 percent of those 14,000 were excluded from category 3 based on the motion of relief from stay
          data and moved to a lower category. Servicer B requested an extension to complete this process
          for the remaining borrowers. Board and OCC staff did not grant the extension, however, because
          it would have caused delays completing the overall payment agreement.

          Granting an extension would have caused a delay because Board staff needed to know the total
          number of borrowers in each waterfall category before the Board and the OCC could finalize the
          payment amounts for each category. As such, the final waterfall payment amounts could not be
          determined until all the servicers submitted their completed waterfalls. Therefore, Servicer B
          slotted the remaining balance of approximately 12,000 borrowers for which it did not have time
          to extract PACER motion for relief from stay data in category 3, the bankruptcy category.
          Reserve Bank examiners were comfortable that the final number of loans in the bankruptcy
          category reflected a conservative approach to identifying borrowers in category 3 for this servicer
          based on the decision not to exclude borrowers.

          The second instance of weak or missing data at Servicer B related to the modification status of
          borrowers’ mortgages. In certain instances, Servicer B did not retain or could not determine the
          modification status of the borrower and slotted those borrowers into category 8.22 However,
          Board staff instructed the servicer that if it could not determine modification status, those
          borrowers should default to the highest applicable waterfall category, which was category 7. As a
          result of this directive, approximately 60,000 Servicer B borrowers were moved to category 7
          from 8. Board officials considered the actions taken by the servicer to be the most conservative


22. Category 8 relates to instances in which the servicer received a borrower’s modification request, but the servicer did not
    make an underwriting decision. Category 8 is further defined to exclude any customer in categories 1, 2, 3, 4, 5, 6, 7, and 10.
    As defined by the Board and the OCC, the categories in the waterfall were not listed numerically, and category 9 was lower
    in the waterfall than category 10. See appendix B for more details on the waterfall categories.




2014-SR-B-015                                                                                                              20
       approach because the actions resulted in placing borrowers in the highest possible waterfall
       payment category given the available data.


Board Staff Provided Guidance to Ensure Consistency Among the
Servicers
       The Reserve Bank dedicated teams used the Supervisory Expectations as a project plan to monitor
       the servicers’ implementation of the terms of the payment agreement. According to the overview
       section of the document, the Supervisory Expectations was “designed to outline the requirements
       of the exam teams and to ensure consistency, to the extent possible.” We believe that consistency
       of results to the extent possible was a guiding principle for this exercise, although the Board’s
       expectations for applying this principle were not clearly defined. Additionally, the scope of the
       document states that “the Dedicated Teams will direct the Servicers to have their waterfall
       independently reviewed by internal audit or independent compliance control function to assess
       the accuracy and completeness of the waterfall.”


Board Staff Emphasized Speed and Provided Broad Objectives
       We attribute the approaches taken to mitigate the data reliability issues to two contributing
       causes: (1) the Board had a sense of urgency to complete the process as quickly as possible and
       (2) the Board conveyed broad objectives as guidance to the Reserve Bank dedicated teams that
       did not consider how to address the impact of data reliability issues on the results of the slotting
       exercise.

       First, the Board and the OCC emphasized speed in the design and execution of the payment
       agreement. Under the IFR, the precursor to the payment agreement, independent consultants
       conducted file reviews for about 18 months, but no money had been provided to borrowers. In
       response to the slow progress of the IFR, the payment agreement emphasized providing
       remediation to borrowers as quickly as possible. The payment agreement term sheets stipulated a
       narrow window of 45 days for completing the Reserve Bank dedicated team reviews of the
       servicer internal validation testing for the execution of the slotting process. Given the sense of
       urgency and narrow time frame, Board staff explained that the payment agreement was designed
       by Board and OCC officials to accurately slot borrowers using an objective, systematic process
       rather than a manual process.

       Second, Board staff provided broad objectives to the Reserve Bank dedicated teams that did not
       specify detailed expectations and procedures. Specifically, the Supervisory Expectations
       document includes four objectives. The second objective outlined that “the process should also
       document and assess known system or data gaps/deficiencies and major assumptions associated
       with completing the Waterfall. In addition, it should document whether and how system
       gaps/deficiencies were addressed in preparing the Waterfall.” Board staff sought to provide the
       dedicated teams with general guidance and provide specific responses to data reliability issues on
       a case-by-case basis. While the document provided instructions, it did not provide specific
       guidance concerning which approaches the Board would consider appropriate to resolve data
       reliability issues. Feedback on specific approaches was provided during frequent interaction
       between Board staff and Reserve Bank dedicated teams.



2014-SR-B-015                                                                                         21
       The Supervisory Expectations document provided detailed procedural steps to complete the
       review of categories 1 and 2 but not for the lower categories. The detailed procedures included
       several steps to be completed specifically to understand and assess the servicer’s slotting
       processes for categories 1 and 2. For categories 3 through 11, however, procedures for reviewing
       the slotting are not specifically outlined; instead, a set of general instructions were provided.
       These instructions for the Reserve Bank dedicated teams included reviewing the servicer systems
       and developing an understanding of the process by which system queries were built. According to
       the Supervisory Expectations, the review may also include understanding which servicer systems
       were used in the slotting process and which data fields were accessed. The procedures to review
       categories 3 through 11 rely on analysis of automated system queries of the servicers’ data.
       Moreover, the Supervisory Expectations document did not identify a threshold for when data
       systems would not be considered sufficiently reliable to support the slotting exercise. According
       to Board officials, a threshold was not used because decisions were made on a case-by-case basis
       based on discussions involving the Board and Reserve Bank staff.


Similarly Situated Borrowers May Have Received Different Payment
Amounts
       Because of the actions taken to mitigate data reliability issues and move borrowers into higher
       categories or refrain from excluding borrowers from higher categories, similarly situated
       borrowers may have received different payment amounts across the servicers. For example, per
       Board staff’s instructions, Servicer A truncated its waterfall due to data that were not sufficiently
       reliable. As a result, approximately 83,000 borrowers originally slotted into lower-tier categories
       were slotted into a higher category and were eligible to receive a payment of $2,000 to $6,000.
       However, if those borrowers had not moved to the higher category, they would have received
       $300 to $800. Among the other 12 servicers, approximately 2 million borrowers were slotted into
       the lower-tier categories and were eligible to receive a payment of $300 to $800.

       Because of the approach to resolving data reliability issues, borrowers at Servicer A and
       Servicer B may have received different payment amounts compared to borrowers at the other
       servicers. For example, at Servicer B, approximately 12,000 borrowers were included in the
       bankruptcy category (category 3) when they may have been appropriately excluded. Borrowers
       slotted in the bankruptcy category were eligible to receive a payment of $3,750 to $62,500.
       Servicer B’s borrower population slotted into the bankruptcy category accounted for 56 percent
       of the total borrowers in category 3. Among the other 12 servicers, approximately 13,000
       borrowers were slotted into category 3.

       Board staff explained that it selected the actions taken to mitigate data reliability issues on a case-
       by-case basis to slot borrowers into the waterfall as accurately as possible. This approach sought
       to foster consistency by acknowledging the limitations associated with the available data. The
       Board and the OCC published the payment distribution plan after the servicers finalized their
       waterfalls. As such, the servicers and the Reserve Bank dedicated team members were not aware
       of the payment distribution amounts for the categories during the slotting process.




2014-SR-B-015                                                                                          22
Summary
       Data integrity issues impacted the reliability and consistency of the slotting results for two
       servicers. These data issues resulted in those servicers moving borrowers into the next-highest
       category or not excluding them from a higher category. As a result of these actions, some
       similarly situated borrowers at the other servicers may have been slotted into dissimilar categories
       and received different payment amounts.


Recommendation
       We recommend that the Directors of BS&R, DCCA, and the Legal Division

                3. Assess the potential impact of data reliability issues as part of the complex
                   enforcement strategies framework described in recommendation 1. Specifically,
                   consider how data availability or reliability issues may impact the feasibility of the
                   exercise or the consistency of its results. As part of this analysis, consider whether
                   alternative enforcement strategies can be adopted that mitigate or eliminate these
                   challenges. As appropriate, these strategies should be developed, vetted, and
                   approved as part of the planning process.


Management’s Response
       The Director of BS&R, the Director of DCCA, and the Board’s General Counsel agreed with our
       recommendation. In their consolidated response to recommendation 3, the Board officials
       indicated that they plan to leverage information learned throughout the IFR process and the
       implementation of the payment agreement when planning for similar complex enforcement
       actions in the future. This effort would include addressing the potential impact of any data
       reliability issues as warranted.


OIG Comment
       In our opinion, the actions described by the Division Directors and the Board’s General Counsel
       are responsive to our recommendation. We plan to follow up on the Board’s actions to ensure that
       the recommendation is fully addressed.




2014-SR-B-015                                                                                        23
 Finding 4: The Board Has Not Finalized a Strategy
 to End the Payment Agreement


         Board officials have not finalized a strategy to end the payment agreement, although the Board
         has developed and discussed with the OCC alternatives to conclude the payment agreement and
         distribute any remaining funds. As of August 15, 2014, borrowers of the 13 servicers that joined
         the payment agreement in January 2013 have cashed or deposited checks totaling about
         $3.15 billion of the total $3.67 billion paid into the QSF accounts by those servicers.23 As there
         will likely be money remaining in the QSF accounts—possibly as much as $500 million or
         more—an approved plan is necessary to address any claims on remaining funds and to administer
         the residual. The Board and the OCC intentionally deferred resolving this issue in order to initiate
         the payment agreement as quickly as possible. The lack of an approved plan or strategy creates
         uncertainty about how the remaining funds will be distributed and may subject the Board to
         further stakeholder criticism.


Board Officials Acknowledged That It Is Unlikely That All Checks Will
Be Cashed or Deposited
         Board officials have not finalized a strategy to end the payment agreement process because the
         Board’s limited advance planning efforts did not involve preparing for the eventuality that all
         borrowers would not be located and that all checks would not be cashed or deposited. Board
         officials have acknowledged that it is unlikely that all borrowers will cash or deposit their check.
         As of August 15, 2014, borrowers of the 13 servicers that joined the payment agreement in
         January 2013 had cashed or deposited checks totaling about $3.15 billion, or about 86 percent, of
         $3.67 billion that those servicers paid into the QSF accounts for those borrowers. Therefore, as of
         August 15, 2014, approximately $520 million in funds were remaining in those QSF accounts.
         Borrowers may not have cashed or deposited checks for varying reasons, including failure to
         locate the borrower or, in limited cases, fraud. For instance, some borrowers were difficult to
         locate due to changes in residence, divorce, name changes, and deaths. As Board staff concluded,
         it is unlikely that they or Rust will be able to locate addresses for all borrowers, and as such,
         funds will be remaining in the QSF accounts. Thus, the Board must determine its strategy to
         eventually wind down this activity.

         Board officials anticipated challenges locating every borrower. Interviewees indicated that the
         Board’s primary focus during the term sheet negotiation process was providing remediation to
         borrowers as quickly as possible. As a result, we understand that Board officials chose to defer
         developing and finalizing the plan for distributing any residual funds until the execution phase of
         the payment agreement. The lack of an approved strategy to address how the remaining funds will
         be distributed creates uncertainty. As the Board has not yet finalized a plan to end the payment
         agreement, the Board exposes itself to additional stakeholder criticism and reputational risk.

23. The QSF 1 account holds funds allocated for borrowers whose mortgage was with 11 servicers. These 11 servicers are
    (1) Aurora, (2) Bank of America, (3) Citibank, (4) HSBC, (5) JPMorgan Chase, (6) MetLife Bank, (7) PNC, (8) Sovereign,
    (9) SunTrust, (10) U.S. Bank, and (11) Wells Fargo. The QSF 2 account holds funds allocated for borrowers whose
    mortgage was with Morgan Stanley or Goldman Sachs. The QSF 3 account holds funds allocated for borrowers whose
    mortgage was with GMAC.



2014-SR-B-015                                                                                                       24
Management Actions Taken During Evaluation
       Board officials have discussed with the OCC alternatives for finalizing the payment agreement.
       During the course of our evaluation, the Board addressed the need to develop a plan to complete
       the payment agreement and distribute any remaining funds, although as of September 18, 2014, it
       had not finalized a plan. Board officials have held meetings internally and with their OCC
       counterparts. Separately from the OCC, the Board has started to consider the pros and cons and
       evaluate the feasibility of various alternatives for completing the payment agreement and
       distributing any remaining funds.


Recommendations
       We recommend that the Directors of BS&R, DCCA, and the Legal Division

                4. Finalize an approach to end the payment agreement, including developing, in
                   coordination with the OCC, a strategy to appropriately allocate any funds remaining
                   in the QSFs that have not been cashed or deposited by borrowers, and continuing
                   efforts to locate uncompensated borrowers.

                5. As part of future agreements involving payments to harmed consumers, identify
                   potential options for distributing any residual amounts as part of the planning
                   process.


Management’s Response
       The Director of BS&R, the Director of DCCA, and the Board’s General Counsel agreed with our
       recommendations. In their consolidated response to recommendation 4, the Board officials
       indicated that the agency has begun working on a plan to end the process for paying in-scope
       borrowers, including continuing efforts to locate uncompensated borrowers and to appropriately
       allocate any funds remaining in the QSFs. We understand that the Board has discussed its plans
       with the OCC. In their consolidated response to recommendation 5, the Board officials indicated
       that they plan to consider potential options for distributing any residual amounts as part of the
       planning process in similar complex enforcement actions in the future.


OIG Comment
       In our opinion, the actions described by the Division Directors and the Board’s General Counsel
       are responsive to our recommendations. We plan to follow up on the Board’s actions to ensure
       that these recommendations are fully addressed.




2014-SR-B-015                                                                                     25
 Appendix A
 Scope and Methodology


       The scope of our evaluation includes the Board’s oversight of the slotting process for the five
       servicers supervised by the Board that had agreed to the payment agreement in January 2013,
       including Goldman Sachs, HSBC, JPMorgan Chase, Morgan Stanley, and SunTrust. Our scope
       did not include the Board’s oversight of the payment agreement as it related to GMAC, another
       Board-supervised servicer, because that servicer did not agree to the payment agreement until
       June 2013. Additionally, our scope comprises evaluating the Board’s approach to overseeing the
       mortgage foreclosure consent orders and the Board’s oversight of the payment process by Rust
       and other third parties.

       To accomplish our objectives, we interviewed officials from BS&R, DCCA, and the Legal
       Division who were assigned to oversee this project. We developed interview questions and
       interviewed officials from the Federal Reserve Banks of Atlanta, Chicago, and New York who
       were assigned to dedicated teams to assess specific servicer compliance with the consent orders.
       Additionally, we interviewed staff from third parties involved in implementing the payment
       agreement, including Rust, Quad/Graphics, and The Huntington National Bank.

       We reviewed in detail the Board’s guidance to the servicers, to the independent consultants, and
       to each of the Reserve Bank teams. We also analyzed the slotting for each of the servicers and
       conducted testing related to the borrower slotting and supporting documentation, including
       internal audit validation and the review performed by the Reserve Bank dedicated teams. Finally,
       we reviewed documentation related to Rust’s activities as the paying agent, including its issues
       log and correspondence with borrowers.

       We conducted our fieldwork from February 2013 through April 2014. We performed this
       evaluation in accordance with the Quality Standards for Inspection and Evaluation issued by the
       Council of the Inspectors General on Integrity and Efficiency.




2014-SR-B-015                                                                                     26
             Appendix B
             Results of the Servicers’ Slotting and the Payment
             Amounts

                                                                                             b
                                                                              11 servicers                        Goldman Sachs and
                                                                                                                   Morgan Stanley
                                                                   Borrowers who
                                                                                       All other borrowers
                                                                 requested a review                                                  Total
         a                                         Stage of                                                     Number of Payment
No.                Category description                         Number of Payment     Number of        Payment                     borrowers
                                                  foreclosure                                                   borrowers amount
                                                                borrowers amount      borrowers        amount
             Servicer foreclosed on borrower     Rescinded             8    $15,000         108         $15,000       14   $15,000
    1a                                    c                                                                                          1,261
             eligible for SCRA protection        Completed           123 $125,000           959        $125,000       49 $125,000
             Servicer charged servicemembers In process               33     >=$300         317         >=$300       101   >=$300
    1b       interest rates that exceed SCRA                                                                                          525
                                                 Completed            11    >=$300                63    >=$300         0   >=$300
             section 527 limits
             Servicer initiated or completed     In process           46     $5,000         543          $5,000        55     $5,000
                                                                                                                                             747
    2        foreclosure on borrower who was Rescinded                 8    $15,000          29         $15,000        10    $15,000
                            c
             not in default                      Completed             8   $125,000          45        $125,000         3   $125,000
             Servicer initiated or completed     In process        2,401     $7,500      19,860          $3,750     1,069     $4,650
             foreclosure on borrower who was Rescinded                28     $7,500         160          $3,750        67     $4,650        29,531
    3
             protected by federal bankruptcy
                                                 Completed           763    $62,500       5,075         $31,250      108     $38,750
             law
             Servicer completed foreclosure on Rescinded              50     $6,000              185     $3,000       45      $3,900
             borrower who was meeting all
    6                                                                                                                                       1,174
             requirements of documented          Completed           162    $24,000              684    $12,000       48     $15,600
             forbearance plan
             Servicer failed to convert          In process          461     $6,000       2,436          $3,000      312      $3,900
             borrower to permanent
                                                                                                                                            4,482
    4        modification after three successful Rescinded            31     $6,000               91     $3,000       44      $3,900
             payments under a written trial-    Completed            239    $50,000              718    $25,000      150     $32,500
             period plan
             Servicer completed foreclosure on Rescinded              29     $6,000              126     $3,000       77      $3,900
             borrower who was performing all
    5        requirements of the written trial-                                                                                             1,209
                                                Completed            163    $50,000              477    $25,000      337     $32,500
             period plan
                                                  In process     118,177       $500    746,894             $300    62,927       $300
                                                                                                                                        1,191,516
    10       Modification request approved        Rescinded        2,617       $500      9,229             $300       869       $300
                                                  Completed       39,368       $500    195,448             $300    15,987       $300
                                                  In process      62,557     $2,000    432,595           $1,000    41,912     $1,300
                                           d                                                                                            942,116
    7        Modification request denied          Rescinded        1,539     $2,000      6,007           $1,000     1,016     $1,300
                                                  Completed       60,251     $6,000    309,597           $3,000    26,642     $3,900
                                                  In process      21,153       $800    200,596             $400    13,090       $520
             Modification request received but    Rescinded          709       $800      3,757             $400       324       $520    449,266
    8
             no underwriting decision made
                                                  Completed       27,152       $800    168,479             $400    14,006       $520
                                                  In process      16,679      $600     312,881            $300      5,825      $300
             Servicer did not engage with         Rescinded          350      $600       4,549            $300         96      $300     918,392
    9        borrower in a loan modification or
             other loss mitigation action         Completed       36,564      $600     531,912            $300      9,536      $300

                                                  In process      21,459      $500      334,630           $300     13,780      $300
                                                                                                                                        633,435
    11       All other loans                      Rescinded          450      $500        4,161           $300        304      $300
                                                  Completed       24,959      $500      218,737           $300     14,955      $300
    Total borrowers                                              438,548              3,511,348                   223,758               4,173,654

Source: OIG analysis of Board and OCC documents.
a
  The categories listed are not in numerical order. For the slotting, borrowers were to flow down through the waterfall in the sequential order
  that the categories appear in this table.
b
  The 11 servicers were Aurora, Bank of America, Citibank, HSBC, JPMorgan Chase, MetLife Bank, PNC, Sovereign, SunTrust, U.S. Bank,
  and Wells Fargo. This chart includes borrowers whose mortgage was serviced by Board- and OCC-supervised servicers.
c
  The amount received by borrowers in these categories may be different because of offsets resulting from other settlements.
d
  According to Board staff, the Board and the OCC decided that all borrowers denied a modification would be slotted into one category.
  Thus, the Board and the OCC combined subcategories (7a and 7b) that had been listed separately in a draft of the IFR waterfall.



         2014-SR-B-015                                                                                                                 27
 Appendix C
 Management’s Response




2014-SR-B-015            28
2014-SR-B-015   29
2014-SR-B-015   30
